HHS/OIG-Audit--"Review of Outpatient Psychiatric Services Provided by the Tomball Regional Hospital for Fiscal Year Ended June 30, 1998, (A-06-99-00014)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services Provided by the Tomball Regional
Hospital for Fiscal Year Ended June 30, 1998," (A-06-99-00014)
July 7, 2000
Complete
Text of Report is available in PDF format (3.12 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report estimates, based on a statistical sample, that at least
$1,098,553 in outpatient psychiatric services claimed by Tomball Regional Hospital
did not meet Medicare reimbursement criteria. Specifically, charges for outpatient
psychiatric services were not reasonable and necessary, or were provided to beneficiaries
who were not eligible for such services. We noted an additional $219,114 for unallowable
occupational therapy charges related to the above claims. Finally, we identified
$45,059 in unallowable patient transportation costs, and were unable to determine
the reasonableness of an additional $818,429 because the Hospital could not provide
supporting documentation. In addition to financial adjustments, we recommended
that the Hospital strengthen its procedures to ensure that charges for outpatient
psychiatric services are covered and properly documented in accordance with Medicare
requirements. We also recommended that the Hospital establish an effective procedure
for excluding costs related to noncovered services from its Medicare cost reports.